APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(September 9, 2020) . . . . . . . . . . . App. 1
Appendix B O p i n i o n
and Order Granting
Defendants’ Motion to Dismiss,
Dismissing Without Prejudice
Plaintiff’s Remaining State Claims,
and Denying as Moot Defendants’
Motion to Stay Discovery in the
United States District Court for
the Eastern District of Michigan
Southern Division
(March 11, 2019) . . . . . . . . . . . . . App. 16

App. 1

APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0301p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-1235
[Filed: September 09, 2020]
____________________________________________
ROYAL TRUCK & TRAILER
)
SALES AND SERVICE, INC.,
)
Plaintiff-Appellant,
)
)
v.
)
)
MIKE KRAFT; KELLY MATTHEWS,
)
Defendants-Appellees.
)
____________________________________________ )
Appeal from the United States District Court
for the Eastern District of Michigan at Port Huron.
No. 3:18-cv-10986—Robert H. Cleland, District
Judge.
Argued: December 12, 2019
Decided and Filed: September 9, 2020
Before: GILMAN, KETHLEDGE, and READLER,
Circuit Judges.

App. 2
_________________
COUNSEL
ARGUED: Anthony M. Sciara, KOTZ SANGSER
WYSOCKI P.C., Detroit, Michigan, for Appellant.
Salvatore J. Vitale, VARNUM LLP, Novi, Michigan, for
Appellees. ON BRIEF: Anthony M. Sciara, Mark F.C.
Johnson, KOTZ SANGSER WYSOCKI P.C., Detroit,
Michigan, for Appellant. Salvatore J. Vitale, Richard T.
Hewlett, VARNUM LLP, Novi, Michigan, for Appellees.
_________________
OPINION
_________________
CHAD A. READLER, Circuit Judge. Following the
abrupt resignation of two employees, Royal Truck &
Trailer discovered that the employees, prior to
resigning, had accessed confidential company
information from their company-issued computers and
cell phones and then utilized the information in
violation of company policy. Royal responded by filing
suit against the employees, alleging violations of the
federal Computer Fraud and Abuse Act (CFAA) as well
as Michigan law.
The conduct at issue might violate company policy,
state law, perhaps even another federal law. But
because Royal concedes that the employees were
authorized to access the information in question, it has
failed to satisfy the statutory requirements for stating
a claim under the CFAA. Accordingly, we AFFIRM the
district court’s judgment.

App. 3
BACKGROUND
Royal employed Defendants Mike Kraft and Kelly
Matthews as a part of the company’s sales team. In
conjunction with their employment, Defendants
received a copy of Royal’s employee handbook. With
respect to the use of company equipment, the handbook
prohibited a range of conduct, including: personal
activities; unauthorized use, retention, or disclosure of
any of Royal’s resources or property; and sending or
posting trade secrets or proprietary information outside
the organization. Royal also had a cell phone “GPS
Tracking Policy.” In accordance with that policy,
“[e]mployees may not disable or interfere with the GPS
(or any other) functions on a company issued cell
phone,” nor may employees “remove any software,
functions or apps.” R.8, Am. Compl., ¶ 18.
Kraft and Matthews abruptly resigned from Royal
to take up employment with T-N-T Trailer Sales, one
of Royal’s Detroit-area competitors. Fearing that
confidential company information might have been
compromised, Royal launched an investigation. That
hunch, the investigation later revealed, proved
prescient. Shortly before his resignation, Kraft
forwarded from his Royal email account to his personal
one quotes for two Royal customers as well as two
Royal paystubs. Kraft also contacted one of Royal’s
customers through Royal’s email server to ask the
customer to send “all the new vendor info” to Kraft’s
personal email account. With that, Kraft then deleted
and reinstalled the operating system on his
company-issued laptop, rendering all of its data
unrecoverable. Eventually, Royal officials went to

App. 4
Kraft’s home and took possession of the laptop as well
as Kraft’s company-issued cell phone.
Before her resignation, Matthews did much the
same. From her Royal email account, Matthews sent to
Kraft’s personal email account a Royal “Salesperson
Summary Report” that contained confidential and
proprietary sales information. She likewise forwarded
an email from her Royal account to her personal one
that contained customer pricing information. And as
Kraft did with his company laptop, Matthews reset her
company-issued cell phone to factory settings,
rendering all data on the phone unrecoverable.
Matthews then returned her company-issued laptop
and cell phone to Royal’s corporate headquarters and
resigned, announcing her resignation more broadly
through social media by sharing a link to a video of
Johnny Paycheck’s hit song, “You Can Take This Job
and Shove It.”
Unamused, Royal hired a “forensics expert” to
conduct a “comprehensive and costly damage
assessment” in an effort to restore the deleted data on
the now former employees’ devices. R.8, Am. Compl.,
¶¶ 25–26. It later filed suit against Kraft and
Matthews in federal court, alleging that their conduct
violated the CFAA as well as Michigan law.
The district court, however, did not see things
Royal’s way. It concluded that because Kelly and
Matthews were authorized to access the information
obtained from their company-issued computers and cell
phones, the two did not “exceed[]” their “authorized
access,” as those terms are used in the CFAA, by later

App. 5
using the information accessed on those devices in
violation of company policy. Royal filed a timely appeal.
ANALYSIS
Under our familiar standard for reviewing a district
court’s decision granting a motion to dismiss, we
“construe the complaint in the light most favorable to
the plaintiff, accept its allegations as true, and draw all
reasonable inferences in favor of the plaintiff.” Jones v.
City of Cincinnati, 521 F.3d 555, 559 (6th Cir. 2008)
(quoting Directv, Inc. v. Treesh, 487 F.3d 471, 476 (6th
Cir. 2007)). Against that backdrop, we ask whether the
complaint “contain[s] sufficient factual matter . . . to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
The CFAA claims. As the basis for its federal claims
against Kraft and Matthews, Royal invokes
§ 1030(a)(2)(C) of the Computer Fraud and Abuse Act,
18 U.S.C. § 1030. That provision instructs that one who
“intentionally accesses a computer without
authorization or exceeds authorized access, and
thereby obtains . . . information from any protected
computer . . . shall be punished.” Id. § 1030
(a)(2)–(a)(2)(C). Although a violation of the CFAA can
be met with criminal sanction (“shall be punished”), the
Act also creates a private right of action, one that
allows for civil liability where “the conduct involves 1
of the factors set forth in subclauses (I), (II), (III), (IV),
or (V) of subsection (c)(4)(A)(i).” Id. § 1030(g); Pulte
Homes, Inc. v. Laborers’ Int’l Union of N. Am., 648 F.3d
295, 299 (6th Cir. 2011) (explaining that the CFAA
“criminalizes certain computer-fraud crimes and

App. 6
creates a civil cause of action”). Of those five
subclauses, relevant here is subclause (I), which covers
“loss to 1 or more persons during any 1-year period . . .
aggregating at least $5,000 in value.”18 U.S.C.
§ 1030(c)(4)(A)(i)(I).
1. Taking all of this together, to allege a violation of
§ 1030(a)(2)(C), Royal must plead that: (1) Defendants
intentionally accessed a computer; (2) the access was
unauthorized or exceeded Defendants’ authorized
access; (3) through that access, Defendants thereby
obtained information from a protected computer; and
(4) the conduct caused loss to one or more persons
during any one-year period aggregating at least $5,000
in value. At this threshold stage, Defendants do not
contest the first or third elements, and we will accept,
for today’s purposes, that Royal’s claim meets the
$5,000 threshold in element four. That leaves the
second element: whether Defendants’ access was
unauthorized, or whether Defendants exceeded their
authorized access, when they sent Royal’s confidential
information from their work devices to their personal
email accounts.
We can narrow our focus even more. Royal
acknowledges that Defendants had authorization to
access company information through their company
email accounts, and thus does not assert that
Defendants’ access was without authorization. What
remains for our resolution then is whether Defendants
nonetheless “exceed[ed] [their] authorized access” by
misusing the accessed information in violation of
company policy. Id. § 1030(a)(2).

App. 7
In answering that question, we begin with the
CFAA’s definitional provisions. The Act defines
“exceeds authorized access” as “to access a computer
with authorization and to use such access to obtain or
alter information in the computer that the accesser is
not entitled so to obtain or alter.” 18 U.S.C.
§ 1030(e)(6). Critical to that formulation are the terms
“access,” “authorization,” and “obtain or alter.” We have
previously defined the term “authorization,” at least in
the inverse: “[A] defendant who accesses a computer
‘without authorization,’” we have said, “does so without
sanction or permission.” Pulte Homes, 648 F.3d at 304
(citing LVRC Holdings, LLC v. Brekka, 581 F.3d 1127,
1132–33 (9th Cir. 2009)). “Authorization” thus means
to have sanction or permission. Likewise, as to the
terms “obtain” and “alter,” Royal emphasizes mainly
the former, which is customarily understood as “to
gain” or “to attain.” Obtain, Oxford English Dictionary
Online (3d ed. 2004).
Now the term “access.” It is commonly defined as
some variation of “entry,” generally the initial entry
into something. Dictionaries include several variations
of “access,” one of which is “[t]he power, opportunity,
permission, or right to come near or into contact with
someone or something; admittance; admission.” Access,
Oxford English Dictionary Online (3d ed. 2011).
Another definition describes how “access” customarily
is used in a digital setting: “[t]he opportunity, means,
or permission to gain entrance to or use a system,
network, file, etc.” A related definition describes
“access” as “[t]he process or act of obtaining or
retrieving data from storage.” Id. Further reflecting
how “access” is used in our technology-based society,

App. 8
Oxford includes a sample use of the term, defining
“[h]acking” as “the practice of gaining illegal or
unauthorized access to other people’s computers.” Id.
(emphasis in original).
Reading these definitional provisions together, it
follows that in utilizing the phrase “exceeds authorized
access,” the CFAA targets one who initially “gain[s]
entrance to . . . a system, network, or file” with
“sanction or permission,” and then “gain[s] or attain[s]”
“information” that, in the words of the statute, she is
“not entitled so to obtain . . . .” 18 U.S.C. § 1030(e)(6).
Congress’s use of the word “so” in the phrase “so to
obtain or alter” is particularly instructive. Id. “So”
operates here as an adverb, meaning “in the way or
manner described, indicated, or suggested.” So, Oxford
English Dictionary Online (2d ed. 1989). The placement
of “so” near the end of the definitional sentence refers
back to the antecedent “with authorization” found
earlier in the definition. That textual signal is further
confirmation that one who exceeds authorized access
has permission to enter a computer for specific
purposes, yet later obtains (or alters) information for
which access has not been authorized. Section
1030(a)(2)’s aim, in other words, is penalizing those
who breach cyber barriers without permission, rather
than policing those who misuse the data they are
authorized to obtain.
The CFAA’s “damages” and “loss” provisions further
confirm the Act’s narrow scope. They too appear aimed
at preventing the typical consequences of hacking,
rather than the misuse of corporate information in the
manner alleged by Royal. “Damages” is defined with

App. 9
reference to the “impairment to the integrity or
availability” of data, programs, systems, or
information. 18 U.S.C. § 1030(e)(8). And the definition
of “loss” speaks to the costs incurred by victims in
responding to an offense, assessing damages, and
restoring data, programs, systems, or information, as
well as the costs incurred due to interrupted service.
Id. § 1030(e)(11). While attentive to hacking episodes
and the like, this is hardly the remedial scheme one
might expect in a statute intended to address the
misuse of sensitive business information by an
employee who uses her “authorized access” in disloyal
ways. See, e.g., 10 U.S.C. § 923(a)(1) (punishing
members of the armed forces who access a government
computer “with an unauthorized purpose” and obtain
classified information).
Collectively, these interpretive clues defeat Royal’s
CFAA claims. The CFAA prohibits accessing data one
is not authorized to access. United States v. Nosal, 676
F.3d 854, 858 (9th Cir. 2012). And Royal has not
contested either Kraft’s or Matthews’s authorization to
access the company files in question. Because
Defendants had authorization to access that
information, their conduct did not “exceed” their
“authorized access,” as those terms are used in
§ 1030(a)(2). To be sure, Royal does allege that Kraft
and Matthews later misused the information they
accessed. But the CFAA does not reach that conduct.
Indeed, Congress surely knew how to say “exceeds
authorized use” or otherwise proscribe using data for
unauthorized purposes. See, e.g., 6 U.S.C. § 482(b)(1),
(b)(3) (requiring sharing of homeland security

App. 10
information among federal agencies in a way that
“ensure[s] that such information is not used for an
unauthorized purpose”). Yet it did not do so in the
CFAA. Congress’s “silence” on that score “is
controlling.” Lindley v. FDIC, 733 F.3d 1043, 1055–56
(11th Cir. 2013) (“‘[W]here Congress knows how to say
something but chooses not to, its silence is controlling.’”
(quoting Griffith v. United States, 206 F.3d 1389, 1394
(11th Cir. 2000))); see also Averett v. United States
Dep’t of Health & Hum. Servs., 943 F.3d 313, 318 (6th
Cir. 2019) (“Omitting a phrase from one statute that
Congress has used in another statute with a similar
purpose ‘virtually commands the inference’ that the
two have different meanings.” (citations omitted)).
We arrived at a similar conclusion as to the CFAA’s
scope in interpreting the phrase “without
authorization” as used in § 1030(a)(5)(B) and (C) of the
CFAA, statutory companions to § 1030(a)(2). See Pulte
Homes, 648 F.3d 295. Pulte Homes involved allegations
that a labor union launched a campaign of email spam
and voicemails against a home builder in retaliation for
firing a union employee. Id. at 303. We were asked to
decide whether that conduct constituted accessing a
“protected computer without authorization.” Id. In
holding that it did not, we noted that the defendant
had permission to use phone and email
communications to contact the plaintiff, emphasizing
that the CFAA’s authorization requirements focus
narrowly on whether one’s threshold access was
authorized. Id. at 304.
Given this plain understanding of the CFAA’s
terms, we need not rely on the rule of lenity, as

App. 11
Defendants urge. Statutory interpretation starts (and
customarily ends) with the text of the statute. Out of
respect for Congress’s textual choices, we turn to the
rule of lenity only when, unlike here, statutory
language cannot otherwise be reconciled. See United
States v. Adams, 722 F.3d 788, 804 n.8 (6th Cir. 2013)
(the rule of lenity “comes into operation at the end of
the process of construing what Congress has expressed,
not at the beginning” (quoting Callanan v. United
States, 364 U.S. 587, 596 (1961))). Nor is there need to
resort to legislative history, an often treacherous path
in its own right. See United States v. Woods, 571 U.S.
31, 46 n.5 (2013) (“Whether or not legislative history is
ever relevant, it need not be consulted when, as here,
the statutory text is unambiguous.”); Conroy v.
Aniskoff, 507 U.S. 511, 519 (1993) (Scalia, J.,
concurring) (“[Legislative history] is not merely a waste
of research time and ink; it is a false and disruptive
lesson in the law. . . . The greatest defect of legislative
history is its illegitimacy.”). But see United States v.
Valle, 807 F.3d 508, 525 (2d Cir. 2015) (utilizing
legislative history to conclude that the CFAA was
intended to address hacking, as that history
consistently references “trespass” into computer
systems or data as the problem the Act was meant to
remedy).
2. Our interpretation today, we acknowledge, might
not be the final word. The Supreme Court recently
granted certiorari in Van Buren v. United States, 940
F.3d 1192 (11th Cir. 2019), cert. granted, 206 L. Ed. 2d
822 (Apr. 20, 2020) (No. 19-783). Although set in a
criminal posture, Van Buren presents the Supreme

App. 12
Court with the opportunity to resolve the meaning of
“exceeds authorized access” as used in the CFAA.
That the Supreme Court agreed to hear Van Buren
is likely a reflection of the lower courts’ dueling
interpretations of this critical passage in the CFAA. 18
U.S.C. § 1030(a)(2). As we do today, the Second,
Fourth, and Ninth Circuits have also held that one who
is authorized to access a computer does not exceed her
authorized access by violating an employer’s
restrictions on the use of information once it is validly
accessed. See Valle, 807 F.3d at 511–12; WEC Carolina
Energy Sols., LLC v. Miller, 687 F.3d 199, 206 (4th Cir.
2012); LVRC Holdings, 581 F.3d at 1129, 1133. So too
have a majority of district courts in our Circuit. See
Royal Truck & Trailer Sales & Serv., Inc. v. Kraft, No.
18-10986, 2019 WL 1112387, at *3 (E.D. Mich. Mar. 11,
2019) (collecting cases).
That said, today’s decision is in tension with those
from the First, Fifth, Seventh, Eighth, and Eleventh
Circuits, all of whom have more broadly interpreted
“exceeds authorized access.” Those courts read § 1030’s
statutory terms as encompassing situations where an
employee has authorization to access company
information but uses that information in violation of
company policy. See United States v. Rodriguez, 628
F.3d 1258, 1263–64 (11th Cir. 2010) (holding that an
employee exceeded authorized access by obtaining
company information for non-business purposes); Int’l
Airport Ctrs., LLC. v. Citrin, 440 F.3d 418, 420 (7th
Cir. 2006) (utilizing principles of agency law to find
that an employee accessed his computer “without
authorization” where his authorized access was

App. 13
terminated once he used the information improperly);
United States v. John, 597 F.3d 263, 271–72 (5th Cir.
2010) (finding an employee liable for exceeding
authorized access even where he had access for other
purposes); EF Cultural Travel BV v. Explorica, Inc.,
274 F.3d 577, 581–83 (1st Cir. 2001) (holding that a
former employee exceeded authorized access by
violating a confidentiality agreement and accessing his
former employer’s website).
In addition to being less faithful to § 1030's text,
this latter interpretation has the odd effect of allowing
employers, rather than Congress, to define the scope of
criminal liability by operation of their employee
computer-use policies. Had Congress intended the
seemingly sweeping result of effectively criminalizing
violations of an employee handbook, it would have said
so in clear terms. See Jones v. United States, 529 U.S.
848, 858 (2000) (“[U]nless Congress conveys its purpose
clearly, it will not be deemed to have significantly
changed . . . the prosecution of crimes.” (internal
quotation marks omitted)). Yet the CFAA does not
mention such policies. Absent clear instruction, we
should be hesitant to impose federal sanctions for
conduct as pedestrian as checking one’s private social
media account on a work phone. With corporate policies
sometimes written in broad and arguably vague terms,
treating violations as criminal acts also risks a lack of
statutory notice to employees over the precise nature of
conduct now criminalized. See, e.g., United States v.
Lopez, 929 F.3d 783, 785 (6th Cir. 2019) (penal statutes
must define the criminal offense with “sufficient
definiteness that ordinary people can understand what
conduct is prohibited” (quoting Kolender v. Lawson, 461

App. 14
U.S. 352, 357 (1983))). And it risks “arbitrary and
discriminatory enforcement” given the variation in
those policies between companies and across
industries. Nosal, 676 F.3d at 860; United States v.
Dunning, 857 F.3d 342, 348 (6th Cir. 2017). All of this
counsels in favor of our narrow reading of the CFAA.
Data deletion. One additional issue of federal law
deserves mention. Royal also alleges that Kraft and
Matthews deleted data from their work devices. And
unlike the Royal customer information Kraft and
Matthews were authorized to access for some purposes,
Royal contends that Kraft and Matthews had no
authorization to engage in data deletion.
As compared to misusing confidential information
one is at least authorized to obtain, data deletion, in
some circumstances, might fairly be characterized as
more akin to “exceed[ing one’s] authorized access.” But
even if Kraft and Matthews “excee[ded their]
authorized access” by deleting data from their company
devices, Royal’s complaint does not allege that the two
“thereby obtain[ed] information from [a] protected
computer,” a required element under § 1030(a)(2)(C).
After all, as others before us have previously
acknowledged, it is difficult to equate deleting data
with obtaining the same. See Experian Mktg. Sols., Inc.
v. Lehman, 2015 WL 5714541, at *7 (W.D. Mich. Sept.
29, 2015) (accessing a laptop to delete data was not
obtaining information for purposes of § 1030(a)(2)(C));
Bd. of Trustees of Pierce Twp. v. Hartman, 2008 WL
11351291, at *4 (S.D. Ohio June 18, 2008) (deletion of
data on a work device after employment had ended did
not constitute “obtain[ing] information” under

App. 15
§ 1030(a)(2)(C); “[r]ather, the claim is that [defendant]
destroyed information without authorization”). In the
context of the claim presented here, we thus reject this
theory of CFAA liability as well.
State-law claims. In the absence of a viable federal
claim by Royal, the district court dismissed Royal’s
state-law claims without prejudice. It did so in
accordance with the settled rule that when a district
court dismisses all claims over which it has original
jurisdiction (here the CFAA claims), it may also
dismiss any state-law claims before it based on
supplemental jurisdiction. 28 U.S.C. § 1367(c)(3);
Gamel v. City of Cincinnati, 625 F.3d 949, 952 (6th Cir.
2010) (noting that “[w]hen all federal claims are
dismissed before trial, the balance of considerations
usually will point to dismissing the state law claims, or
remanding them to state court if the action was
removed” (citation omitted)). We see no reason to do
otherwise.
CONCLUSION
For the aforementioned reasons, we AFFIRM the
judgment of the district court.

App. 16

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
No. 18-10986
[Filed: March 11, 2019]
_________________________________________
ROYAL TRUCK & TRAILER
)
SALES AND SERVICE, INC.,
)
)
Plaintiff,
)
)
v.
)
)
MIKE KRAFT AND KELLY MATTHEWS, )
)
Defendants.
)
_________________________________________ )
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION TO DISMISS,
DISMISSING WITHOUT PREJUDICE
PLAINTIFF’S REMAINING STATE CLAIMS,
AND DENYING AS MOOT DEFENDANTS’
MOTION TO STAY DISCOVERY
Plaintiff Royal Truck & Trailer Sales and Service,
Inc. (“Royal Truck”) brings claim against two of its
former employees, Defendants Mike Kraft and Kelly
Matthews, based on Defendants’ alleged

App. 17
misappropriation of Plaintiff’s company information
prior to Defendants resigning from the company.
Pending before the court are two motions filed by
Defendants: a motion to dismiss (Dkt. #11) and a
motion to stay discovery (Dkt. #18.) These motions
have been fully briefed, and the court concludes that a
hearing is not necessary. See E.D. Mich. 7.1(f)(2). For
the reasons stated below, the court will grant
Defendants’ motion to dismiss, dismiss without
prejudice Plaintiff’s remaining state law claims, and
deny as moot Defendants’ motion to stay.
I. BACKGROUND
Plaintiff is a Michigan-based truck supply and
service company. Both Defendants are former
employees of Plaintiff who accepted employment at a
competitor of Plaintiff shortly after their resignations.
While working for the company, both Defendants
received company laptops, cell phones, and email
addresses and were permitted to access Plaintiff’s
customer and employee information. Defendants’
access to this information, Plaintiff asserts, was limited
by policies described in the Plaintiff’s employee
handbook. This handbook included an “Information
Security/Confidentiality” policy which prohibited
employees from using company information for
nonbusiness purposes and sharing proprietary
information with competitors. Plaintiff alleges that
Defendants were familiar with these policies.
According to Plaintiff, Defendants exceeded their
authorized access to their company-provided
cellphones, laptops, and email accounts by accessing
and using information in violation of Plaintiff’s

App. 18
information policies. Plaintiff specifically alleges that
before resigning, Defendants forwarded customer
quotes, employee paystubs, and confidential sales
figures to their personal email accounts and erased
information and programs from their company devices.
Based on these actions, Plaintiff brings claim for
violation of the Computer Fraud and Abuse Act
(“CFAA”) as well as state law claims for conversion,
breach of the duty of loyalty, tortious inference with a
business relationship, and civil conspiracy.
Defendants do not explicitly deny these allegations
but rather argue that Plaintiff’s allegations do not form
a cognizable claim under the CFAA.1
II. STANDARD
Federal Rule of Civil Procedure 12(b)(6) provides for
dismissal of a complaint for failure to state a claim
upon which relief may be granted. Under the Rule, the
court construes the complaint in the light most
favorable to the plaintiff and accepts all well-pleaded
factual allegations as true. Barber v. Miller, 809 F.3d
840, 843 (6th Cir. 2015).
Federal Rule of Civil Procedure 8 requires a
plaintiff to present in her complaint “a short and plain
statement of the claim showing that the pleader is
1

The court notes that Defendants failed to include a statement
regarding Defendants’ attempt to seek concurrence as required by
Local Rule 7.1(a) in either of their motions. E.D. Mich. LR 7.1(a).
Plaintiff’s lack of concurrence to these motions is presumed based
on Plaintiff’s responses. Nevertheless, the court cautions that
failure to comply with the court’s Local Rules can result in motions
being stricken without consideration.

App. 19
entitled to relief.” A complaint must provide sufficient
facts to “state a claim to relief that is plausible on its
face.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). “The plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a
sheer possibility that defendant acted unlawfully.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing
Twombly, 550 U.S. at 556). “Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. (citing
Twombly, 550 U.S. at 555).
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678 (citing
Twombly, 550 U.S. at 555). “To state a valid claim, a
complaint must contain either direct or inferential
allegations respecting all the material elements to
sustain recovery under some viable legal theory.”
Boland v. Holder, 682 F.3d 531, 534 (6th Cir. 2012)
(emphasis removed) (citing League of United Latin Am.
Citizens v. Bredesen, 500 F.3d 523, 527 (6th Cir. 2007)).
Determining whether a complaint states a plausible
claim for relief is “a context-specific task that requires
the reviewing court to draw on its judicial experience
and common sense.” Iqbal, 556 U.S. at 678 (citing
Twombly, 550 U.S. at 555).
III. DISCUSSION
Defendants’ motion to dismiss raises a narrow
issue, which currently forms a circuit split: whether the
Computer Fraud and Abuse Act (“CFAA”) governs
situations in which employees who are authorized to

App. 20
access their employer’s information use that
information in violation of their employer’s policies. For
the reasons explained below, the court finds that it
does not and, therefore, the court will grant
Defendants’ motion to dismiss.
A. CFAA Claims
The CFAA is criminal, anti-hacking statute that
also creates a private cause of action for “[a]ny person
who suffers damage or loss by reason of a violation of
this section[.]” 18 U.S.C. § 1030(g). The portion of the
statute at issue in this case prohibits individuals from
knowingly accessing a protected computer “without
authorization” or in a manner that “exceeds authorized
access.” 18 U.S.C. § 1030(a)(2). To state a claim,
Plaintiff must prove that Defendants “(1) accessed a
protected computer; (2) without authorization or
exceeded authorized access; and (3) there was damage
or loss to plaintiff of more than $5,000 of value in a
one-year period.” Senderra Rx Partners, Ltd. Liab. Co.
v. Loftin, No. 15-13761, 2016 U.S. Dist. LEXIS 173203,
at *6 (E.D. Mich. Dec. 8, 2016). Defendants’ motion to
dismiss challenges Plaintiff’s ability to satisfy the
second element. Here, Plaintiff alleges that Defendants
exceeded their “authorized access” in forwarding price
quotes, employee pay stubs, and sales information to
their personal email accounts in violation of company
policies. Courts are not in universal agreement as to
whether an employee’s violation of company policies
implicates the CFAA.
In Ajuba Int’l, L.L.C. v. Saharia, 871 F. Supp. 2d
671 (E.D. Mich. 2012) (Battani, J.), the court aptly
summarizes the two approaches taken by courts that

App. 21
have analyzed the CFAA’s “exceeds authorized access”
language:
Some courts have construed the terms
narrowly, holding that an employee’s misuse or
misappropriation of an employer’s business
information is not “without authorization” so
long as the employer has given the employee
permission to access such information. See
LVRC Holdings L.L.C. v. Brekka, 581 F.3d 1127
(9th Cir. 2009) (holding that that the CFAA
targets the unauthorized procurement or
alteration of information rather than its
misuse); Orbit One Commc’ns, Inc. v. Numerex
Corp., 692 F.Supp.2d 373, 385 (S.D. N.Y. 2010)
(“The plain language of the CFAA supports a
narrow reading. The CFAA expressly prohibits
improper ‘access’ of computer information. It
does not prohibit misuse or misappropriation.”)
. . . In other words, courts adopting the narrow
approach hold that, once an employee is granted
“authorization” to access an employer’s computer
that stores confidential company data, that
employee does not violate the CFAA regardless
of how he subsequently uses the information.
Other courts have construed the terms
broadly, finding that the CFAA covers violations
of an employer’s computer use restrictions or a
breach of the duty of loyalty under the agency
doctrine. See United States v. Rodriguez, 628
F.3d 1258(11th Cir. 2010); United States v.
John, 597 F.3d 263 (5th Cir. 2010); Int’l Airport
Ctrs., L.L.C. v. Citrin, 440 F.3d 418 (7th Cir.
2006); EF Cultural Travel BV v. Explorica, Inc.,

App. 22
274 F.3d 577 (1st Cir. 2001). The broad approach
holds that “an employee accesses a computer
‘without authorization’ whenever the employee,
without the employer’s knowledge, acquires an
interest that is adverse to that of his employer
or is guilty of a serious breach of loyalty.”
Guest-Tek Interactive Entm’t, Inc. v. Pullen, 665
F.Supp.2d 42, 45 (D. Mass. 2009).
Id. at 686–87.
The Sixth Circuit has not directly considered this
issue. Id. at 686. However, two of three of courts in this
district to address this issue have adopted the narrow
approach. See Senderra Rx Partners, Ltd. Liab. Co. v.
Loftin, No. 15-13761, 2016 U.S. Dist. LEXIS 173203, at
*6 (E.D. Mich. Dec. 8, 2016) (Cohn, J.); see contra Am.
Furukawa, Inc. v. Hossain, 103 F. Supp. 3d 864, 876
(E.D. Mich. 2015) (Drain, J.). Additionally, the majority
of district courts in the Sixth Circuit to address this
issue have adopted the narrow approach. See Experian
Mktg. Sols., Inc. v. Lehman, No. 15-CV-476, 2015 WL
5714541, at *5 (W.D. Mich. Sept. 29, 2015) (Bell, J.);
Cranel Inc. v. Pro Image Consultants Grp., LLC, 57
F. Supp. 3d 838, 845 (S.D. Ohio 2014) (Graham, J.);
Dana Ltd. v. Am. Axle & Mfg. Holdings, Inc., No.
10-CV-450, 2012 WL 2524008, *5 (W.D. Mich. June 29,
2012) (Bell, J.); ReMedPar, Inc. v. AllParts Med.,
L.L.C., 683 F. Supp. 2d 605, 609 (M.D. Tenn. 2010)
(Wiseman, Jr., J.); Black & Decker, Inc. v. Smith, 568
F. Supp. 2d 929 (W.D. Tenn. 2008) (Breen, J.); Am.
Family Mut. Ins. Co. v. Rickman, 554 F.Supp.2d 766,
771 (N.D. Ohio 2008) (Zouhary, J.).

App. 23
With any issue of statutory interpretation, the court
begins by analyzing the plain meaning of the statute.
See Perez v. Postal Police Officers Ass’n, 736 F.3d 736,
741 (6th Cir. 2013). The court is persuaded that the
plain meaning of the CFAA necessitates the adoption
of the narrow approach. As explained by the Ninth
Circuit Court of Appeals in LVRC Holdings LLC v.
Brekka, 581 F.3d 1127 (9th Cir. 2009), the term
“authorization” must be interpreted by its ordinary
meaning because it is not defined in the statute. Id. at
1132. Authorization is defined as “permission or power
granted by an authority.” Id. (quoting Authorization,
Random House Unabridged Dictionary, 139 (2001);
Authorization, Webster’s Third International
Dictionary, 146 (2002)). The Ninth Circuit reasoned
that this definition implies that “an employer gives an
employee ‘authorization’ to access a company computer
when the employer gives the employee permission to
use it.” Based on this plain meaning, when an employer
allows an employee to access a computer, such as in
this case, an employee does not act “without
authorization” even if the employee uses the computer
for a personal purpose. See id. Therefore, the statute’s
“without authorization” language does not apply to
situations, such as those alleged in the complaint,
where the plaintiff authorized the defendant to access
the information at issue.2
2

At least some of the courts to favor the narrow approach also rely
on “the rule of lenity and the statutory canon of avoiding absurd
results” and “the legislative history and congressional intent” as
supporting such a finding. See, e.g., Ajuba Int’l, L.L.C., 871
F. Supp. 2d at 687. Being mindful of “the thicket of legislative
history,” United States v. Gonzales, 520 U.S. 1, 4 (1997), the court

App. 24
The court also echoes the concern raised by other
courts that adopting the board approach and allowing
employers to recover against employees for violating
internal information polices would transform a
criminal statute, initially intended to punish hackers,
into a federal cause of action for a breach of the duty of
loyalty. See, e.g., Am. Family Mut. Ins. Co. v. Rickman,
554 F. Supp. 2d 766, 771 (N.D. Ohio 2008) (“The
statute was not meant to cover the disloyal employee
who walks off with confidential information. Rather,
the statutory purpose is to punish trespassers and
hackers.”).
Plaintiff’s CFAA claims are exclusively based on
Defendants’ alleged violation of company policy. (Dkt.
13, PageID 109.) The court’s determination that the
CFAA does not extend to such conduct, therefore, ends
the court’s inquiry into Plaintiff’s CFAA claims.
B. State Law Claims
In the absence of any surviving claims under federal
law, the court will decline to exercise supplemental
jurisdiction over Plaintiff’s remaining state law claims.
See Novak v. MetroHealth Med. Ctr., 503 F.3d 572, 583
(6th Cir. 2007) (citing 28 U.S.C. § 1367(c)(3)) (“A
district court may decline to exercise supplemental
jurisdiction over state law claims if it has dismissed all
claims over which it had original jurisdiction.”). The
court will dismiss without prejudice Plaintiff’s

merely notes these points in passing without adoption or analysis.
See id. at 6 (“Given the straightforward statutory command, there
is no reason to resort to legislative history.”).

App. 25
remaining claims for conversion, breach of the duty of
loyalty, tortious interference, and civil conspiracy.
IV. CONCLUSION
The court is not persuaded that the CFAA applies to
the misappropriation of information by employees
authorized to access their company’s data. Accordingly,
IT IS ORDERED that Defendants’ motion to
dismiss (Dkt. #11) is GRANTED. The court DECLINES
to exercise supplemental jurisdiction over Plaintiff’s
remaining state claims and DISMISSES these claims
WITHOUT PREJUDICE.
IT IS FURTHER ORDERED that Defendants’
motion to stay discovery (Dkt. #18.) is DENIED AS
MOOT.
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE
Dated: March 11, 2019
I hereby certify that a copy of the foregoing document
was mailed to counsel of record on this date, March 11,
2019, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522

